                                                    A ~ ~ Y ~ Q O
                               CLOSEOUT FORTWMWFHO




        OIG received an allegation that an NSF proposal1 submitted by the subject2 contained
                                                           -   a   C



plagiarized text. During our inquiry, we determined that the subject included plagiarized text
in the NSF proposal and in several proposals he submitted to other federal agencies. In
August 1997, OIG deferred the investigation to the university. The university determined that
the subject's actions were misconduct in science. OIG accepted the university's report as being
fair, accurate and complete, and incorporated the university's findings into its investigation
report.

        OIG's investigation report and NSF's Acting Deputy Director's 2 November 1999
letter describing his determination constitute the closeout for this case.




CC: IG, Integrity




1
    [Footnote redacted].
    [Footnote redacted].


                                     Page 1 of 1                             M96-40
                            NATIONAL SCIENCE FOUNDATIO.
                                 4201 WILSON BOULEVARD
                                ARLINGTON, VIRGINIA 22230


                                                November 2 , 1999


  OFFICE OF THE
D E P W DIRECTOR




   VIA CERTIFIED MAICK, - RETURN .RECEIPTREQUESTED

  Re: Notice of Misconduct in Science Determination



  On February 19, 1999, the National Science Foundation's Office of Inspector General
  sent you a draft Investigation Report finding that you committed misconduct in science
  by plagiarizing text, graphics and tables from a book and a published paper into a
  proposal you submitted to NSF.

 Under NSF regulations, "misconduct" is defined to include "plagiarism, or other serious
 deviation fiom accepted practices in proposing, carrying out, or reporting results fiom
 activities funded by NSF." 45 C.F.R. tj 689.1(a).


                                                                           submitted to the
Foundation on-                 includes extensive plagiarism fiom a book and a published
paper. The record also indicates that you subsequently submitted a modified version of
this proposal to NSF a second time and to the-
Agency. Although the proposal included general references to the plagiarized texts, the
references were entirely inadequate given the extent of plagiarized text. Your submission
of a proposal that extensively copies ideas or words of others without adequate
attribution, as described in the Investigation Report, is plagiarism and a serious deviation
from accepted practices within the scientific community.

NSF regulations establish three categories of actions (Group I, II and III) that can be
taken in response to a finding of misconduct. 45 C.F.R. 5 689.2(a). Group I actions
include issuing a letter of reprimand conditioning awards on prior approval of particular
activities fiom NSF; and requiring certifications on the accuracy of reports or assurances
of compliance with particular requirements. Group I1 actions include restrictions on
designated activities or expenditures; and special reviews of requests for fbnding. Group
111 actions include suspension or termination of awards; debarment or suspension from
  participation in NSF programs; and prohibitions on participation as NSF reviewers,
  advisors and consultants.

  In deciding what sanction is appropriate, NSF considered the seriousness of the
  misconduct, whether it was deliberate or careless; whether it was an isolated event or part
  of a pattern; and whether the misconduct affects only certain funding requests or has
  implications for any application for funding involving the subject of the misconduct
  finding. 45 C.F.R. 5 689.2(c).

 I have also considered your responses to the OIG's Investigative Report in which you
 acknowledged your mistakes and indicated a willingness to accept the requirement that
 you certify that proposals you submit in the future comply with NSF's Misconduct in
 Science and Engineering regulations. I am also aware that you resigned from your
 position at the                         3s a result of your plagiarism and I have
 concluded that$ is unnecessary to reBire department heads at other universities where
 you may work to provide separate ccAifications on your behalf

 Accordingly, I take the following action:

    For three years from the date of this notice, if you or someone on your behalf submits
    any document associated with proposing, carrying out or reporting research to NSF,
    you must submit a copy of the document and a separate written certification that you
    have reviewed NSF's Misconduct in Science and Engineering regulation (45 C.F.R.
    Part 689) and that the document contains no plagiarized material, to the Associate
    Inspector Genera1 for Scientific Integrity, 4201 Wilson Boulevard, Arlington,
    Virginia 22230.

Procedures Governing A~peals

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 C.F.R. $689.9(a). Any
appeal should be addressed to the Director at the National Science Foundation, 4201
Wilson Boulevard, Arlington, Virginia 22230. For your information, we are attaching a
copy of the applicable regulations. Ifyou have any questions about the foregoing, please
call Lawrence Rudolph, General Counsel, at (703) 306-1060.




                                    L/       Joseph Bordogna
                                             Deputy Director


Enclosures
                       Confidential




     Office of Inspector General
             Investigation Report
                        OIG Case M96 110040




This document is loaned to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It may
be disclosed outside of NSF only by the Inspector General, pursuant to the
Freedom of Information and Privacy Acts, 5 U.S.C. $5 552, 552a.
                       REPORT OF INVESTIGATION INTO ALLEGATIONS OF
                                  NIISCONDUCT IN SCIENCE




         The Office of Inspector General (OIG) has concluded that the subject' plagiarized text,
graphics, and tables from a book (Book c ) ~and a published paper, specifically an abstract
(Abstract c ) , ~into a         to NSF, and submitted modified versions of that proposal three
times to two federal agencies.5 (See Table 1 summarizing the subject's copying with inadequate
attribution.) Comparison of the subject's proposal and the source documents showed extensive,
verbatim copying without adequate attribution of approximately 5 112 pages (121 lines of text, 7
figures and 1 table) from the book and the abstract. We conclude that the subject's actions
constitute plagiarism. The evidence demonstrated that the subject was solely responsible for the
plagiarism. These conclusions are based on our inquiry and an investigation performed by the
University.

        We recommend that NSF find that the subject committed misconduct in science and take
the following actions as a final disposition in this case.

1. The subject should receive a letter of reprimand from the NSF Deputy Director informing
   him that he was found to have committed misconduct in science.
2. For 3 years, after the final disposition of this case, when proposals are submitted by the
   subject or on his behalf to NSF, he should be required to submit certifications to OIG that, to
   the best of his knowledge, they contain nothing that violates NSF's Misconduct in Science
   and Engineering regulation (45 C.F.R. part 689). Further, he should be required to ensure
   that his department chairperson, or equivalent, submits an assurance to OIG that, to the best
   of that person's knowledge, the submitted proposals do not contain any plagiarized materials
   and all source documents are properly cited.
3. The subject should be requested to send his certification and the University's assurances to
   NSF's Office of Inspector General, for retention in the Office's confidential file on this
   matter.




I
    [footnote redacted].
2
    [footnote redacted].
3
    [footnote redacted].
4
    [footnote redacted].
    [footnote redacted].


                                             Page 1
        OIG received an allegation that an NSF proposal (Proposal A ) submitted
                                                                           ~         by the subject
and a colleague contained text plagiarized from the abstract of a published paper (Abstract A ) . ~
While conducting an inquiry into this allegation, we received a second allegation that another
NSF proposal (Proposal ~ ( 1 ) ) 'submitted by the subject contained plagiarized text from another
publication's abstract (Abstract B).' A third allegation involved more extensive amounts of
plagiarism in another of the subject's proposals (Proposal ~ ( 1 ) ) "to NSF. The third allegation of
plagiarism is the primary focus of this investigation report.

       In total, the subject included copied text without proper attribution in eight proposals to
two federal agencies. (Table 1.) Of these eight proposals, four were modified versions of earlier
NSF proposals that were subsequently resubmitted to NSF or submitted to [redacted].

       We will present the evidence in the order it was evaluated: first by our inquiry, and then
by the University's investigation committee.




 [footnote redacted].
' [footnote redacted].
    [footnote redacted].
'[footnote redacted].
 ' O See footnote 5.




                                              Page 2
                                Table 1. Listing of the Subject's Proposals with Inadequate Attribution

       Subject's       Submittal        Source                               Extent of Plagiarism
     Proposal No.        Date          Document
    [redacted]        [redacted]      Abstract A           12 lines
    Proposal A                                            Includes 3 general references'' to the author at various points
                                                          m the copied passage
    [redacted]        [redacted]      Abstract B           11 lines
    Proposal B(l)                                         Includes 2 general references to the author at various points in
                                                          the copied passage
    [redacted]        [redacted]     Abstract B            11 llnes
    Proposal B(2)                                         Includes 2 general references to the author at various points in
                                                          the copied passage
    [redacted]       [redacted]      Book C               5 pages (66 lines of text, 7 figures, and portions of one table)
    Proposal C(l)                                         Includes 1 general reference to the author in the copied passage

                                     Abstract C           13 lines
                                                          Includes 1 general reference to the author in the copied passage

    [redacted]       [redacted]      Book C               5 112 pages (103 lines of text, 7 figures, 1 full table)
    Proposal C(2)                                         Includes 1 general reference to the author in the copied passage

                                     Abstract C           18 lines
                                                          Includes 1 general reference to the author in the copied passage

    [redacted]       1996            Book C               *5 pages (66 lines of text, 7 figures, and portions of one table)
    Proposal                                              *Includes 1 general reference to the author
    ~(3)'~                           Abstract C           * 13 lines
                                                         *Includes 1 general reference to the author in the copied
                                                         passage
-   [redacted]       1997            Book C              * 5 pages (66 lines of text, 7 figures, and portions of one table)
    Proposal C(4)                                        *Includes 1 general reference to the author in the copied
                                                         passage
                                     Abstract C          *13 lines
                                                         *Includes 1 general reference to the author in the copied
                                                         passage
    [redacted]       [redacted]      Abstract D          8 lines
    Proposal D                                           Includes 4 general references to the author at various points in
                                                         the copied passage




      II
         The "general references" provided by the subject mention the source material, but do not distinguish between the
      text of the source material and the original text of the subject. [redacted] (Proposal text identical to source text is
      italicized.)
      12
         In the "Extent of Plagiarism" column, items marked with an asterisk (*) are based on the admissions of the subject
      and the documentation provided in his self-evaluation. These materials are part of the administrative record of this
      case and are available for review. The original text of these [redacted] proposals was not available.


                                                             Page 3
Evaluation of the Initial Allegations

        After receiving the first allegation of plagiarism, we compared the subject's Proposal A
with the alleged source material, Abstract A. We found 12 lines of text in the background
section of Proposal A that were identical or substantially similar to Abstract A. Although the
copied paragraph contained three general referencesI3 to Abstract A, the 12 lines of copied text
did not provide adequate attributioni4to the original text to show that it have been copied from
the abstract. For comparison purposes, we have included copies of Proposal A (Appendix I),
and Abstract A (Appendix 2). We have highlighted in green the 12 lines of text common to both
documents, with general references highlighted in pink.

        After receiving the second allegation of plagiarism, we compared the subject's Proposal
B(l) with the alleged source material, Abstract B. We found that 11 lines in the background
section of Proposal B(1) were identical or substantially similar to Abstract B. As in the first
allegation, the cited text begins with a general reference to the abstract, but does not provide
adequate attribution to the author of Abstract B. We have included copies of Proposal B(l)
(Appendix 3) and Abstract B (Appendix 4). We have highlighted in green the 11 lines of text
common to both documents, with the general reference highlighted in pink.

Subject's Response to OIG's Inquiry

        We sent letters to the subject and his co-PI to obtain explanations for the text that was
copied without adequate attribution. (Appendix 5 and 6, respectively.) The co-PI responded to
our letter with a phone call shortly after receiving our letter, and sent us a written response
(Appendix 7), explaining that he was not responsible for cited sections of Proposal A. In
contrast, the subject did not respond to our letter, claiming that he had not received it.I5 The
subject responded to our second letter by stating that "the wording [in the proposals] is too close
from [sic] the original sources." (Appendix 8.) He also noted that the copied text was in the
background section of the proposal and not in the experimental or data analysis section,
suggesting a lesser importance to his mistakes. He did not respond to our question regarding
other instances of plagiarism.'6




13
   See footnote 1 1.
14
   We use the words "inadequate attribution," in this report, to indicate the subject's practice of copying materials
and only providing general references to the original author. The subject is expected to distinguish the copied text
using methods, such as variable fonts, indentation or quotation marks, to differentiate copied material and original
material in a document.
15
  We sent our first letters to the subject and the co-PI on the same day, by overnight courier to the same Department,
and the same buildmg. We contacted the overnight carrier to track the delivery of the letter to the subject, and the
carrier reported that the letter addressed to the subject had been delivered and signed for by University staff one day
after it was sent.
16
   It was later determined that the subject had submitted three additional proposals without providing adequate
attribution. See footnote 22.


                                                       Page 4
 Third Allegation

         While waiting for the subject's response, we received the third allegation alleging that the
 subject plagiarized text from a published book (Book C) into the background portion of the
 project description section of his Proposal C(1). We found approximately 5 pages of text,
 graphics, and tables in Proposal C(l) that were identical or substantially similar to those in Book
 C. The subject included a general reference to the book near the beginning of the copied text,
 but did not provide adequate attribution to the text written by the book's author. The only
 changes he made to the text were those needed to incorporate that text smoothly into his
 proposal.

        After reviewing other NSF proposals submitted by the subject, we discovered that an
earlier version of Proposal C(1) was submitted in 1995 (Proposal c(2)).17 Proposal C(2)
includes larger sections of text copied without adequate attribution, including 103 lines of text, 7
graphics and an entire table. We have included copies of Proposal C(2) (Appendix 9) and the
relevant portions of Book C (Appendix 10). We have highlighted the lines of text common to
C(2) and the source document in green, general references in pink, and text that is found in C(2)
but not in C(l) in orange. Additional highlighting in yellow will be discussed in a later section.

Conclusion of OIG's Inquiry

        After reviewing all of the evidence and the subject's response to our inquiry letters, we
concluded that there was sufficient substance to the allegations of plagiarism to warrant an
investigation. Consistent with NSFYsposition that awardee institutions bear primary
responsibility for preventing and detecting misconduct, we informed the University of the
allegations, and at its request, we agreed to delay any possible investigation by our office until
the University had completed its own, independent investigation. We formally deferred the
investigation of this case to the University in a letter of [redacted]. (Appendix 11.)



        The University's policy (Appendix 12) states, "[c]onduct, inconsistent with the ethical
conduct of research and considered to be misconduct shall include: (1) serious deviation, such as
fabrication, falsification, misrepresentation, or arbitrary or biased selection of data, from
commonly accepted practice in proposing or conducting research or in reporting the results of
research; and (2) plagiarism or appropriating the data of another individual and presenting it as if
it were one's own."18 The University's misconduct policy requires that it conduct an inquiry
before it initiates an investigation.I9 On [redacted], the University's inquiry committee
recommended that the "allegations merit further investigation." (Appendix 13.)

      The University convened an investigation committee that provided its written report
(Appendix 14) to the administration on [redacted]. To come to its conclusions, the committee


17
     See footnote 4.
18
     Appendix 12, p. 1 .
l9   Appendix 12, p.2.


                                              Page 5
reviewed the documents provided as attachments to our [redacted] letter (see Appendix 11 for a
list of these materials). In addition, the committee conducted the following assessments:

         1) two interviews with the subject and one interview with the co-PI;
         2) an assessment of the allegations contained in our letter of [redacted];
         3) a search for additional instances of plagiarism, including:
            a) a "limited analysis" of all of the subject's proposals submitted while he was
                employed at the University;
            b) a request for a self-evaluation by the subject of all of his grant proposals;
            c) a "limited, computer-assisted comparison" of the subject's NSF proposals to cited
                source documents;
            d) a "limited perusal" of the subject's doctoral dissertation and peer-reviewed
                publications; and,
         4) an assessment of the subject's response to our first letter.

         The committee based their recommendation on five conclusions. Afier each conclusion
(listed below), we include references to sections of the investigation report that support the
committee's decisions.

1) The subject was responsible for all the acts of alleged copying in our [redacted] letter.
   (Appendix 14, Invest. Report, p.5-6.) The committee concluded that none of proposals
   referenced by OIG had "sufficient indication that the material was copied, even though the
   original sources were sometimes cited." (Appendix 14, Invest. Report, p.5.)

2) The subject was responsible for additional acts of a similar nature beyond the allegations in
   our letter of [redacted], including:
       additional verbatim copying20into Proposal C(2) of an abstract (Abstract C) (Appendix
       16);
       verbatim copying of another abstract (Abstract D) into Proposal D (Appendices 18 and
       17, respectively);21and,
      resubmissions of proposals with plagiarized text to NSF and to US EPA. 22 (Appendix 14,
      Invest. Report, p.6, 9.)

3) The committee concluded that "[iln all cases . . .these acts constitute[d] plagiarism and,
   hence, misconduct in science." (Appendix 14, Invest. Report, p.2.) They stated that this
   finding was demonstrated beyond a reasonable doubt. (Appendix 14, Invest. Report, pp.8, 10
   -11.)



20
   See Appendix 9; yellow highlighting is used to show text common to both documents. The subject made 1
general reference to Abstract C, but did not distinguish text that was original to the author.
2' The investigating committee discovered that the subject's NSF proposal, [redacted] included 8 lines of verbatim
plagiarism from an abstract of a paper written by B. [redacted] The plagiarized section of text included 4 general
references to the author, but does not distinguish copied text.
22 Proposal C(l) was a resubmittal of an earlier NSF proposal, [redacted] Modified versions of this proposal were
submitted to the [redacted] (Proposals C(3) and C(4)). Proposal B(l) was a resubmittal of an earlier NSF proposal,
(Proposal B(2) [redacted].


                                                     Page 6
4) Because of the repeated acts of plagiarism, the committee concluded that the subject showed
   a "reckless disregard for [the] careful preparation of [his] proposals." (Appendix 14, Invest.
   Report, p.7.) They concluded that this finding was demonstrated beyond a reasonable doubt.
   (Appendix 14, Invest. Report, pp.7, 10-11.)

5) The repetitive pattern and extent of several instances of plagiarism led the committee to
   conclude that the subject's actions were knowing and willful. The committee stated that this
   finding was demonstrated by clear and convincing evidence. (Appendix 14, Invest. Report,
   pp.7, 10-11.)

The committee concluded that

           Plagiarism is one of the most serious ethical offenses in science and engineering,
           as evidenced by its explicit inclusion in NSF's [definition of plagiarism]. This
           committee has found that [the subject] did indeed commit plagiarism in proposing
           research. [The subjectl's goal may have been to save time in writing proposals.
           However, the plagiarism is so extensive that the committee does not believe it
           reasonable to consider [the subject's explanation of lack of time] as a mitigating
           factor. . . . Given the seriousness of its conclusions, the committee recommends
           that the [University] administration consider appropriate disciplinary action
           against [the subject]. 23

                                                     BY THE UNIVERSITY
                                               ACTIONS

        The Dean of the College of [redacted] received the committee's report and forwarded it
to the [redacted]. The committee recommended that the University consider taking appropriate
disciplinary action against the subject. In his forwarding letter, the Dean of [redacted]
recommended that the University initiate proceedings required by the contract between the
University and the American Association of University Professors (the Union). The subject
signed a separation agreement on [redacted], and submitted a letter of resignation [redacted],
effective [redacted]. (Appendix 18.)



        NSF defines misconduct in relevant part as "[flabrication, falsification, plagiarism, or
other serious deviation from accepted practices in proposing, carrying out, or reporting results
from activities funded by NSF." (45 C.F.R. 9 689.1(a)(l).) For NSF to make a finding of
misconduct in science, a preponderance of the evidence must show that the subject committed a
bad act associated with NSF-funded activities, and that the bad act was committed with a
culpable state of mind (e.g., willful, knowing, or gross negligence) (45 C.F.R. 5 689.2(d)).

       In our evaluation of the alleged misconduct, we have focused on the plagiarism included
in Proposal C(2) and the associated resubmittals, because of the extensive amount of copied
material contained in those proposals. Although the other instances of copying include


23   See Appendix 14, Invest. Report, p. 11.


                                                    Page 7
 inadequate attributions of authorship, we do not think these instances rise to the level of
 misconduct in science. Rather, we see these other instances of copying as evidence of a pattern
 of inappropriate behavior, reflecting the subject's persistent disregard for proper attribution.

        We deferred allegations of plagiarism for investigation to the University and received the
University's report of its investigation. We believe the Report is fair, accurate, and complete.24
The University's committee concluded that the subject had committed misconduct in science
when he copied text without proper attribution into 8 proposals from 5 sources. The committee
determined that the subject's actions were knowing and willful. They determined that the
subject's misconduct was not an isolated event, but reflected a pattern. The committee's
conclusions were supported by evidence collected by OIG's inquiry, interviews with the subject,
and comparative assessments of the subject's proposals. We have used the investigating
committee's report and conclusions as the basis for our own conclusions about misconduct in
science.

The Act - Plagiarism

        The subject admitted to the investigating committee that he copied material from Book C
(103 lines of text, 7 figures and a table) and Abstract C (18 lines of text) into his Proposal C(2)
without providing adequate attribution, and resubmitted the proposal with modifications three
times (once to NSF and twice to [redacted]). He was unsure about the exact method used to
copy the material, but mentioned that he periodically downloaded original text of abstracts from
commercial databases, using a program [redacted] and also regularly scanned printed material
using various types of software. We agree with the committee's conclusion that the evidence
supports the conclusion that the subject represented the copied text in his NSF proposals as his
own and copied the materials without the permission of the authors.25

State of ~ i n -dPlagiarism

        We believe the subject acted culpably when he copied material fiom Book C and
Abstract C into his Proposal C(2) without providing adequate attribution, and later resubmitted
modifications of this proposal three times. The University committee 'believe[d] that [the
subject] acted recklessly, knowingly and willfully. . . . At the very least, the failure to adequately
identify copied material adequately was inadvertent, the result of not having time to correct his
rough drafts. Had this happened only once, perhaps it could have been viewed as being careless,
and nothing more. However, the fact that it happened repeatedly constitutes evidence . . . that
[the subject] showed a reckless disregard for careful preparation of his proposals. In addition,
the extent of the copied material in [Proposal C(2)] and its revision, [Proposal C(l)] provides
strong indication that the copying was done knowingly and willfully."26


24 The subject sent OIG a letter in late [redacted] 1999 describing, generally, his experience at the University and the
investigation process. (Appendix 15.) We requested that the subject provide documentation of issues he raised
regarding the fairness of the investigation process and the accuracy of the report. We have not received any
documentation fiom the subject on these issues.
25
   The University believed that its conclusions were supported beyond a reasonable doubt. This exceeds the
evidentiary standard required by NSF's misconduct regulations -- a preponderance of the evidence.
26 Appendix 14, p.7.




                                                       Page 8
         Copying is inherently a knowing activity. The purpose of his actions, although not
directly discussed by the subject, appears to be convenience. He submitted an average of 11
proposals and pre-proposals each year, according to the investigating committee. The subject
selectively copied text from the source documents, modifying words only to the extent necessary
to alter the tone or disguise the source of the text. Despite the effort involved in carehlly
reading, selecting, and modifying different passages from Book C and Abstract C, the subject
failed to offset any of the copied text. Therefore, we conclude that the subject acted at least
knowingly.

OIG's Conclusion about the Plagiarism

        We conclude that the subject committed plagiarism when he knowingly copied a total of
5 112 of material from two separate documents (Book C and Abstract C) into his Proposal C(2)
without providing adequate attribution to the original authors. We consider the copying of 18
lines from the abstract to be plagiarism, in this case, because of the integration of the abstract
text into the larger section of text plagiarized from Book C. His action was a serious deviation
from accepted practices in the scientific community, hence, misconduct in science.



        Under 689.2(b) of NSF's misconduct in science and engineering regulation, when
deciding what actions are appropriate when misconduct is found, NSF officials should consider
any evidence of a pattern, the seriousness of the misconduct, the intent with which the subject
acted, and finally its relevance to other funding requests or awards involving the University or
individual.

Evidence of a Pattern

        The University's investigation committee thought "the [evidence regarding the]
allegations presented in [OIG's] [redacted] letter, by themselves, document a pattern of repeated
misc~nduct."~~   After discovering five additional instances of copying with inadequate
attribution by the subject, the committee noted that "these additional instances illustrate, in the
committee's view, a repeated pattern of behavior,"28 The University concluded that all instances
of copying with inadequate attribution were acts of plagiarism, and therefore, establish a pattern
of misconduct. Instead, we find a pattern of unprofessional behaviors and practices that directly
supported the act of plagiarism.                                                              )




        Although the copied sections varied in length and level of attribution, when viewed in the
aggregate, the subject exhibits a clear behavioral pattern of copying without proper attribution.
Copied text without proper attribution was found in 4 different proposals29submitted by the
subject. These four proposals include 152 lines of text, 7 figures and 1 table.


27 '
   Appendix 13, p.8.
28
29
     m.,at 9.
   It is important to note that these four proposals (A, B(2), C(2), D) are not resubmittals of previous proposals (i.e.,
B( 11, C( 11, C(3) or (34)).


                                                        Page 9
         The subject's style of copying -- providing a general reference and copying large sections
of text verbatim -- is common to all of these instances. The only difference between Proposals
C(l-4) and the other proposals, is the extent of his copying. The plagiarism in proposals C(l-4)
is part of a pattern of troubling behavior, a copying style that provides inadequate attribution to
other's work.

        In addition he admitted and discussed at length,)' his practice of using digital
technologies to gain access easily to original work of others and to include it efficiently in his
own proposals. He admitted that he regularly utilized a process of downloading text from the
Internet and utilizing optical scanners and optical character recognition software to incorporate
the works of others into his own proposals. As described, his system had no safeguards for
proper citation practices; instead it only facilitated his ability to mechanically copy others' work,
thereby expediting a pattern of troubling behavior.

       We find that the subject's actions reflect strong, clear evidence of an unacceptable pattern
of behavior that is directly related to the identified plagiarism.

Seriousness

        By portraying the work of other scientists as his own, the subject seriously deviated from
the accepted practice, not only in his scientific community, but also in the wider scientific and
[redacted] community. The subject's references to Book C and Abstract C are completely
inadequate to indicate that he copied, essentially verbatim 121 lines of text, 7 figures, and a table
into his Proposal C(2).

        When a proposal author transcribes material, as the subject did in this proposal, he must
mark it off from the other text in his proposal so that it is distinguishable by font, indentation,
quotation marks or other means from the material he authored. Providing a citation, while
necessary, is not sufficient. A citation to the source is sufficient only if an author uses the ideas
drawn from another source, but describes them in his own words. In this case, the subject used
the exact words of the authors and, therefore, was obligated to do more than simply provide a
citation to the source. The fact that the subject included some citations to the sources makes this
case less serious than those warranting the most serious actions (such as debarment).

        The University fully supports this standard, and found that "[the subject] had no
legitimatejustfleation for failing to indicate that he was quoting the material in question.
Copied text should essentially always be set off from surrounding text by quotation marks or
other standard means (e.g., indentation or font). The only possible exceptions are short passages
where the wording itseyhas become part of standard usage or in which, because of highly
technical vocabulary, essentially only one wording is possible; e.g., some mathematical
definitions. Neither of these exceptions is applicable here." (emphasis retained from the original
text) (Appendix 14, Invest. Report, p.5.)



30 Invest. Report,   Appendix E, pp. 11-13,26-28, 32-34, 37. This'informationis part of the administrative record and
is available for review.


                                                        Page 10
         We believe that the extent of the plagiarism in Proposal C(2) makes this a serious matter.
 The subject copied approximately 5 112 pages of material from a textbook and a published paper,
 including text, graphics, and tables, with few modifications. The only modifications made to the
 text by the subject were those necessary to disguise the source of the material.31This proposal
 was resubmitted three times, but despite the time lapses between the resubmittals, the subject did
 not make significant changes or citation corrections to the plagiarized text in any of the
 resubmittals.

         The subject's actions were also more serious because of his incomplete response to our
initial inquiry. Questions about his credibility arose early in our inquiry, when he claimed that
he never received our first letter sent by certified overnight mail.32 After receiving the second
copy of our letter, despite the seriousness of the allegations, the subject was not forthcoming in
his response. We find his reasons for not responding to be less than credible and think it shows
an unacceptable disregard for the gravity of these allegations, consistent with his pattern of
disregard for ethical citation practices. The University addressed this issue in their investigation
report, and found the lack of response "disturbing".33

        We believe the members of the University investigation committee, as representatives of
the scientific community, have provided a clear statement about the seriousness of the subject's
actions. On the basis of the case we deferred, the University told us that the subject has agreed
to resign from the University.

Recommended NSF Action

        The recommended actions listed below take into account the University's disciplinary
actions against the subject (i.e., resignation of the subject). We also considered the subject's
level of experience and his inclusion of general references to the source of the copied text. For
these reasons, we are not recommending debarment despite the extent of the plagiarism. We
recommend that NSF's Deputy Director take the following actions to protect the government's
interests:

1. The subject should receive a letter of reprimand from the NSF Deputy Director informing
   him that he was found to have committed misconduct in science.34
2. For 3 years, when proposals are submitted by the subject or on his behalf to NSF, he should
   be required to submit certifications to OIG that, to the best of his knowledge, the proposals
   contain nothing that violates NSF's Misconduct in Science and Engineering regulation (45
   C.F.R. Part 689). Further, he should be required to ensure that his department chairperson, or
   equivalent, submits an assurance to OIG that, to the best of that person's knowledge, the



3' As an example, the following two sentences are taken from the (1) the original text of Book C and (2) Proposal
C(2). The text common to both is in italics. [redacted] (Proposal C(2), p.C-4)
32Theovernight courier provided evidence that a staff person in the subject's department had signed for two letters
that were sent simultaneously to him and his co-PI. The co-PI, from the same Department, received our letter in the
expected timeframe.
33
   Appendix 14, Invest. Report, p. 10.
34
   This is a Group I action (see 45 C.F.R. § 689.2(a)(l)(i)).


                                                     Page 11
   submitted proposals do not contain any plagiarized materials and all source documents are
   properly cited.35
3. The subject should be requested to send his certification and the University's assurances, as
   required in (2), to NSF7sOffice of Inspector General, for retention in the Office's
   confidential file on this matter.

    We believe that these actions will adequately protect NSF7sinterests. Being that the subject
has requested fknding from other federal agencies, we believe that NSF should consider
coordinating certifications and assurances with [redacted] or other federal agencies, to ensure
proper protection of federal interests.

                               RESPONSET O THE DRAFTINVESTIGATIVE REPORT
                        SUBJECTS

        On [redacted], we provided the subject a drafi of this Investigation Report and requested
that he provide us with any comments or corrections within 30 days ([redacted]). We
specifically asked for further explanation and documentation regarding his comments about the
University's investigation process (see footnote 24). We called the subject on [redacted] to         I
                                                                                                    I
determine if he had any comments on the report. He provided written comments on [redacted].
We spoke with him to clarify several issues, primarily to explain the meaning and
implementation of debarment and assurance actions. As a result, the subject requested that NSF
                                                                                                    1
consider reducing the period for assurances to 2 years, and that NSF refrain from discussing
these matters with other federal agencies. (Appendix 19.)
                                                                                                    ~
                                                                                                    I




        We considered the subject's requests for alternative agency actions and we concluded        I

that the recommended disposition should not be changed. The recommended disposition is              I

proportionate to the seriousness of the subject's misconduct and is consistent with prior agency
actions in similar cases. We do not support the subject's request for non-disclosure to other
                                                                                                    I
federal agencies because of the significant pattern of unacceptable behavior exhibited by the
subject that occurred in multiple submissions to other federal agencies. The recommendations in
this Report remain unchanged from the draft provided to the subject.                                1i




35
     These are Group I1 actions (see 45 C.F.R. § 689.2(a)(2)(ii)).


                                                        Page 12
